<html>
<title> - GENOCIDE AGAINST THE BURMESE ROHINGYA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                 GENOCIDE AGAINST THE BURMESE ROHINGYA

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2018

                               __________

                           Serial No. 115-166

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        



Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.Govinfo.gov              
                       
                                ______
                                
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-302 PDF                 WASHINGTON : 2018                                   
                                
                                
                                
                                
                                
                                
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania<greek-l>   TULSI GABBARD, Hawaii
RON DeSANTIS, Florida [until 9/10/   JOAQUIN CASTRO, Texas
    18] deg.                         ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Greta Van Susteren, host, ``Plugged In with Greta Van 
  Susteren,'' Voice of America...................................     5
Mr. Stephen Pomper, program director, United States, 
  International Crisis Group.....................................    12

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Greta Van Susteren: Prepared statement.......................     8
Mr. Stephen Pomper: Prepared statement...........................    14

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs:
  Testimony by the Faith Coalition to Stop Genocide in Burma.....    59
  Statement of the Honorable Sander Levin, a Representative in 
    Congress from the State of Michigan..........................    63
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: State Department report dated August 
  2018...........................................................    65
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and chairman: Human Rights Council report dated 
  September 17, 2018.............................................    72
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia:
  Statement of the Lutheran Immigration and Refugee Service......    80
  Prepared statement.............................................    83
Written responses from the witnesses to a question submitted for 
  the record by the Honorable Dina Titus, a Representative in 
  Congress from the State of Nevada..............................    85


                 GENOCIDE AGAINST THE BURMESE ROHINGYA

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:00 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. Members, if you'll take your seat we are 
going to call this hearing to order.
    For more than three decades, the Government of Burma has 
systematically denied the Rohingya people even the most basic 
human rights. Add to that no access to education and no access 
to healthcare.
    Last year, this persecution reached a new low, horrific 
levels, as the Burmese military drove 700,000 Rohingya from 
their homes, burning villages and killing scores, doing so-
called ``terrorist clearance operations.'' That's what the 
military calls it as they drive people to their death.
    One Rohingya survivor recalled the attacks on his village, 
saying ``the whole village was under random fire like rain.''
    Just this week, the State Department released a report 
detailing stomach-turning, systematic, and widespread acts of 
violence against the Rohingya northern Rakhine State.
    The report includes gruesome accounts of burning elderly 
alive in their homes, gang raping women, and slaughtering 
fleeing refugees.
    The Burmese military made no distinction between men, 
women, and children. One woman recalls watching as, to quote 
her words, ``newborns and children who could barely walk, they 
threw them in the river'' while she desperately hid in bushes 
across from that river.
    It is hard to hear these accounts without feeling queasy. 
But we must catalogue these atrocities so that we can one day 
hold the perpetrators accountable, and I want to commend the 
administration for speaking out against these atrocities.
    Ambassador Nikki Haley, in particular, has repeatedly 
demanded that the international community not ignore the plight 
of the Rohingya and that the U.S., as you know, we are 
providing desperately needed humanitarian assistance to the 
survivors, many who are now refugees in Bangladesh.
    But I encourage the administration to go further. This is 
more than just a textbook example of ethnic cleansing. To all 
who have met with the Rohingya refugees, who have heard these 
accounts, it is clear that these crimes amount to genocide.
    The Convention on the Prevention and Punishment of the 
Crime of Genocide, signed and ratified by the United States, 
defines genocide as certain acts committed with the intent to 
destroy, in whole or in part, a national, ethnic, racial, or 
religious group.
    Those acts include, among others, killing members of the 
ethnicity or religion; causing serious bodily or mental harm to 
that ethnicity; deliberately inflicting conditions of life 
calculated to bring about its physical destruction in whole or 
in part; and imposing measures intended to prevent births.
    I believe that a realistic accounting of the deliberate 
campaign of murder, of intimidation, and displacement against 
the Rohingya clearly meets this legal standard for genocide.
    Making a formal determination of genocide must be the next 
step for the U.S. Defining these atrocities for what they are 
is critical to building international public awareness and 
support to stop them.
    The protection of human rights has long been our nation's 
top priority in Burma, dating back to freeing Aung San Suu Kyi, 
and today, that must include protection of the Rohingya people.
    The Burmese Government and its military must ensure the 
protection of all the people of Burma, regardless of their 
ethnic background or their religious beliefs. Those military 
leaders and security forces responsible for these atrocities 
must face justice.
    The U.S. must push the civilian leader Aung San Suu Kyi to 
rise to this challenge. Confronting genocide of the Rohingya is 
a moral issue and a national security issue.
    No one is more secure when fanaticism and unchecked 
violence are growing in this part of the world.
    I look forward to hearing from our witnesses on these 
issues today and now I turn to Mr. Eliot Engel, our ranking 
member, from New York.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
calling this hearing. To our witnesses, welcome to the Foreign 
Affairs Committee.
    Mr. Pomper, I am aware of the good work that you do and, 
Ms. Van Susteren, it's good to see you again. From the first 
time I appeared on your show, I was always a big fan. So thank 
you both for being here.
    Our last hearing on this topic, roughly a year ago, took 
place at the height of the horrific violence against the 
Rohingya.
    We saw startling evidence of what was taking place and 
heard about the desperate humanitarian crisis which, despite 
heroic efforts, is, sadly, no less dire today--more than 
700,000 refugees, 70 percent of whom are women and children.
    It's interesting because our congressional districts all 
have about 700,000 people each in them. So every Member of 
Congress could imagine--if every person who lived in your 
congressional district were a refuge, imagine what it would be 
like. That's the magnitude of the problem.
    Seventy percent of these 700,000 are women and children and 
they now live in the world's largest refugee camp, in its 
entirety--the constant risk of losing their temporary shelters 
to monsoon rains and all kinds of other tragedies.
    In the last year, though, we have also learned more about 
who was responsible. The Burmese military has claimed that this 
brutal crackdown is the response to a clash that took place on 
August 25th of last year. This is simply not true. Ample 
evidence shows that the Burmese military and police forces used 
this campaign to specifically target Rohingya civilians, to 
target them with rape, with indiscriminate killing, with slash 
and burn tactics that have destroyed dozens of villages.
    The U.N. Independent International Fact-Finding Mission 
Report has undertaken the most comprehensive investigation to 
date. It recently called for the U.N. Security Council to 
authorize the ICC to investigate and prosecute senior officials 
in the Burmese military for crimes against humanity and ``so 
that a competent court can determine their liability for 
genocide.''
    So after a year of unrelenting violence and suffering, what 
will American policy be? The State Department quietly published 
its report on these atrocities last week. No announcement, no 
legal determination about what occurred, no indication of what 
comes next.
    I ask, Mr. Chairman, that it be included in the record.
    Chairman Royce. Without objection.
    Mr. Engel. Thank you.
    Will Secretary Pompeo determine that ``crimes against 
humanity'' occurred, which is, clearly, the case? Will he go 
further and say that crimes occurred with genocidal intent? 
Will he make the evidence behind the report available to use 
against the perpetrators of these crimes?
    I believe he should, as the Burmese Government is currently 
bulldozing Rohingya villages and destroying any evidence that 
remains.
    Ambassador Haley announced $185 million in additional 
humanitarian assistance for the Rohingya and communities in 
Bangladesh who are hosting refugees. This is welcome news, 
because funding humanitarian relief is necessary. But it isn't 
a sufficient response, in my opinion, to such a grave human 
tragedy. There is a range of other steps we should be taking. 
There are ways we could exercise real leadership to help 
mitigate this crisis.
    First of all, the United States should advocate for the 
U.N. Security Council to refer this case to the ICC. Instead, 
the President went in front of the world yesterday and trashed 
the ICC.
    We should use our global statute to call this crime what it 
is--clearly, a crime against humanity and likely also a 
genocide, then rally a strong international commitment to fully 
fund the latest appeal for humanitarian assistance.
    Instead, the State Department is using language that lets 
perpetrators off the hook. The President lobs insults at the 
international institutions that could make a difference instead 
of using our leverage to garner more support to address this 
crisis.
    We should be true to our history and our values and provide 
safe haven for men, women, and children who have been driven 
from their homes.
    Instead, we are slashing the number of refugees allowed 
onto our shores--a pittance of 30,000. It's really shameful. 
The United States, of course, is not to blame for this crisis. 
The Burmese military, starting with commander in chief of the 
army, Min Aung Hlaing, bears primary responsibility. The blood 
is on their hands.
    Aung San Suu Kyi, the civilian leader once also hailed as 
her country's moral leader, has proven herself, unfortunately, 
to be part of the problem by failing to speak out, by denying 
the abuses that have taken place, and for not addressing the 
apartheid policies and conditions in Rakhine State that set the 
stage for this catastrophe. I know that Mr. Pomper points this 
out in his written testimony.
    But even though we are not responsible for the crisis, for 
decades American leadership has meant having the moral courage 
to stand up and do the right thing in the face of this kind of 
suffering.
    The administration's policies send a clear message--we are 
no longer willing to carry that mantle. When it comes to 
standing up for human rights, for justice, for the rule of law, 
for the world's most vulnerable and oppressed, the United 
States has taken itself out of the running.
    Complex challenges require multifaceted solutions and real 
leadership and we are not, in my opinion, exercising either of 
those. Shame on us.
    I look forward to hearing from our witnesses what our path 
forward might look like if the administration were inclined to 
take it.
    I yield back. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    And before we move to our witnesses' testimony, we have a 
video from Ms. Van Susteren that we are going to play which 
includes footage from her recent trip to the refugee camps in 
Bangladesh.
    [Video played.]
    Chairman Royce. Thank you, Greta.
    Let me explain to the members here and to our witnesses. 
There is some background noise from construction going on in 
the building and our staff director, Tom Sheehy, is in the 
process of trying to get that stopped.
    So we will continue here with our hearing. But this 
morning, I am very pleased to welcome Ms. Greta Van Susteren 
and Mr. Stephen Pomper to the committee.
    Greta Van Susteren currently anchors Voice of America's 
foreign policy show ``Plugged in With Greta Van Susteren,'' and 
you can access that online, by the way. She has spent 14 years 
at Fox News, where she hosted the prime time news and interview 
program ``On the Record with Greta Van Susteren.''
    She has traveled the world to cover international news 
stories, and most recently, of course, to Burma to observe the 
current genocide against the Rohingya.
    Stephen Pomper currently serves as the United States 
program director for the International Crisis Group. 
Previously, he was a senior policy scholar at the U.S. 
Institute of Peace and a Davis Distinguished Fellow at the U.S. 
Holocaust Memorial Museum.
    He also served on the staff of the National Security 
Council where he served as the senior director for multilateral 
affairs in human rights.
    And we appreciate them both being with us here today. 
Without objection, the witnesses' full prepared statements are 
going to be made part of the record.
    Members here will have 5 calendar days to submit any 
statements or questions or extraneous material for the record.
    So, if you would, Ms. Van Susteren, please summarize your 
remarks and we will go to you at this time.

 STATEMENT OF MS. GRETA VAN SUSTEREN, HOST, ``PLUGGED IN WITH 
             GRETA VAN SUSTEREN,'' VOICE OF AMERICA

    Ms. Van Susteren. Thank you, sir.
    Chairman Royce, Ranking Member Engel, members of the 
committee, thank you for the opportunity to testify.
    The video you just saw is a shortened version but it's a 
powerful witness to the tragedy unfolding for the Rohingya 
people. This is pure suffering.
    I am here today with Voice of America, part of the U.S. 
Agency for Global Media, and I volunteer to host a weekly 
affairs program, as the chairman noted, at VOA.
    And as a journalist, my job is simply to tell you what I 
saw, to tell you the truth. Today, I am sharing my personal 
observations of the crisis informed by my reporting and I'd 
like to share the work of VOA to report on and reach the 
Rohingya people. My observations should not be construed as 
official positions of the administration.
    I've made four trips to Myanmar and the surrounding region. 
My first trip to the Rohingya refugee camps in Bangladesh was 
in December 2017 in my own capacity.
    I literally hitchhiked on the back of a cargo plane with an 
NGO, Samaritan's Purse, and I returned with VOA Director Amanda 
Bennett, again, to the refugee camp in June 2018, and as you 
saw in the video, in June the monsoon season just devastated 
the camps.
    Shelters slipped away in mudslides, walls collapsed around 
huts and people, and attempts at just basic sanitation were 
obliterated.
    The United Nations High Commission on Refugees estimates 
800,000 Rohingya refugees from Myanmar are now living in those 
camps that are adjacent to each other.
    These people are forgotten. They are stateless. They are 
homeless. They are nameless.
    In Myanmar, the government has rejected the use of the term 
``Rohingya.'' The Rohingya are non-people to them. They have 
been dehumanized. This attitude was evident in nearly every 
interaction I've had when I've been in Myanmar.
    The trauma of the refugees' violent departure from Myanmar 
is fresh. You saw in the video that pregnant women raped by the 
Myanmar military are shunned in the community.
    Children live with memories of unspeakable brutality. One 
young boy proudly showed me a drawing he produced in an NGO-
sponsored art program. I asked him to explain his art work to 
me and at one point I asked, ``What is that?''
    He replied that it was a drawing of a severed bloody hand. 
He saw it on the ground near his village home in Myanmar as he 
fled with his mother.
    I heard many others speak about the Myanmar military's 
brutal use of machetes.
    But what do we do now? The international community is aware 
and concerned, but gaining traction with the Myanmar officials 
has been difficult. In August 2018, the U.N. Human Rights 
Council issued a report documenting atrocities against the 
Rohingya people.
    It details the military's mass killing of villagers, raping 
of women and girls, and the torching of villages. The report 
recommends that senior military leadership in Myanmar be 
investigated and prosecuted for genocide against the Rohingya.
    U.S. Ambassador to the U.N. Nikki Haley confirmed that the 
State Department's own fact finding report is consistent with 
the U.N. report. She was right when she said, ``The whole world 
is watching what we do next and if we act.''
    As journalists, VOA is already acting by covering the 
crisis from the start for its international audiences including 
those in Myanmar. It's risky for VOA reporters in Myanmar to do 
this.
    Our reporters have faced pressures to stop using the term 
Rohingya in their work. But they have resisted. VOA's coverage 
includes interviews with representatives from the Myanmar and 
Bangladesh Governments, U.N. officials, human rights 
organizations, reactions from the State Department, and 
congressional comments and hearings.
    I want to emphasize that hearing the views of Congress is 
of the utmost importance for VOA's international audiences. VOA 
is also working to directly reach the refugees.
    Director Amanda Bennett's visit with me to Bangladesh in 
June was to assess how VOA can better report on and broadcast 
to the refugees.
    UNHCR representatives, NGOs in the field, and 
representatives from the government of Bangladesh were highly 
supportive. The assessment identified multiple options for 
delivering content including radio and listening groups 
established by NGOs.
    Director Amanda Bennett and her team also spoke with people 
living in the camp to learn about their news habits and issue 
preferences. Without exception, every group, male and female, 
wanted news and information. They are especially eager to hear 
news from Myanmar and what the international community is 
saying about them.
    Some refugees with prior education recognize the VOA brand. 
They were also interested in learning English. In April 2018, 
VOA started transmitting 30 minutes of learning English 
language across AM and short wave radio.
    VOA is also planning to start limited broadcasting in the 
Rohingya dialect. The value of bringing news and information to 
the Rohingya cannot be underscored. Left in these camps long 
term they will lack economic opportunity, be targets for human 
trafficking or exploitation or violent extremism. VOA news can 
make a difference.
    I am extremely passionate about this project because I see 
it as contributing to what I hope will be a strong decisive 
response by the U.S. Government to seek a long-term peaceful 
solution for the Rohingya people.
    In closing, I must acknowledge the efforts of Secretary 
Pompeo and Ambassador Haley to be forceful on this issue. I 
must also thank the many NGOs that rushed to help the Rohingya 
people fleeing from Myanmar last year, from Doctors Without 
Borders to Samaritan's Purse, the World Food Program, and so 
many more.
    And finally, thank you, Chairman Royce and Ranking Member 
Engel for convening this hearing. Journalists must document 
atrocities as they occur.
    Based on my own reporting, I firmly believe this is a 
pivotal moment for the United States and for being on the right 
side of history.
    When we say never again, we must mean it.
    Thank you.
    [The prepared statement of Ms. Van Susteren follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
             ----------                              

    Chairman Royce. Thank you, Greta.
    Mr. Pomper.

   STATEMENT OF MR. STEPHEN POMPER, PROGRAM DIRECTOR, UNITED 
               STATES, INTERNATIONAL CRISIS GROUP

    Mr. Pomper. Mr. Chairman, Ranking Member Engel, and 
distinguished members of the committee, thank you so much for 
the opportunity to speak to you today about the atrocities 
committed against the Rohingya population of Rakhine State and 
the ongoing human rights and humanitarian disaster that has 
displaced hundreds of thousands of Rohingya to southeastern 
Bangladesh.
    My name is Stephen Pomper and I am the U.S. program 
director at the International Crisis Group. Previously, I 
served in a range of policy and legal roles in the U.S. 
Government, which are summarized in my written testimony.
    Mr. Chairman, the unfathomable horrors that the Rohingya 
have suffered are documented in two recent reports that have 
received considerable attention.
    The first is a report by a U.N.-mandated fact-finding 
mission which was cited by Ambassador Haley in her remarks to 
the Security Council in late August and which describes the 
``immediate, brutal, and grossly disproportionate'' operations 
launched by the Myanmar armed forces known as the Tatmadaw in 
the aftermath of a cluster of coordinated insurgent attacks in 
August 2017.
    That report concludes that the primarily Tatmadaw 
operations, which included indiscriminate killings, the 
targeting of children, gang rapes, villages burned to the 
ground, and people burned alive suggest, by their nature and 
scope, a level of preplanning by the Tatmadaw.
    The second is a report by the U.S. Department of State 
released just the other day which is based on a survey of over 
1,000 Rohingya refugees who have been displaced to camps in the 
Cox's Bazar region of Bangladesh and which led the State 
Department to similar factual findings about the tragic events 
that unfolded in August 2017 and its aftermath.
    Mr. Chairman, against this factual backdrop it is hardly 
surprising that the U.N. fact-finding mission found a 
reasonable basis to conclude that the Tatmadaw and others had 
committed crimes against humanity and war crimes and that there 
was a sufficient basis to investigate and prosecute the crime 
of genocide. These are all crimes of international concern--the 
gravest of crimes.
    Mr. Chairman, primary responsibility for these crimes rests 
with the Tatmadaw including its commander in chief, Min Aung 
Hlaing, and the other security forces that perpetrated them, 
and these actors must be held accountable.
    But, Mr. Chairman, this tragedy is all the more bitter 
because it comes against the backdrop of what not so long ago 
seemed a promising democratic transition which installed Aung 
San Suu Kyi as the senior civilian leader of the Myanmar 
Government.
    While she lacks control over the military, this does not 
excuse the fact that Suu Kyi has refused to face the reality of 
what has occurred or to use her moral authority to urge the 
country down a path that could culminate in the safe, 
dignified, and voluntary return of the Rohingya to their homes.
    Mr. Chairman, in the face of these terrible facts, the 
tools and strategies that are available to the United States to 
provide support to the Rohingya are few, imperfect, and 
limited.
    But in order to make progress, it will be important to use 
them all, and energetically. These tools include targeted 
sanctions adopted under the Global Magnitsky Executive Order or 
other available authorities. While not a silver bullet, these 
can send an important message that may deter other potential 
bad actors.
    These tools also include support for international 
tribunals and courts that enjoy jurisdiction over the crimes in 
question as well as the international mechanism that is, 
hopefully, being created to collect and preserve evidence for 
their benefit. These efforts may take time to yield results but 
they are the only way to achieve a measure of justice for the 
victims of these atrocities.
    These tools include humanitarian support to the Rohingya in 
Bangladesh and development support to the communities where 
they are living, which is necessary both to meet the immediate 
needs of the refugees and to prevent economic burdens from 
driving a dangerous wedge between them and their hosts.
    And, Mr. Chairman, these tools also include continued 
engagement with Aung San Suu Kyi's government, which, though 
frustrating, is the only way to encourage recognition of the 
catastrophe that the Tatmadaw has wrought and to begin working 
toward the critical changes required to enable the safe and 
voluntary return of the Rohingya.
    Mr. Chairman, there are steps that Congress can take to 
support this effort. Congress can send a signal of support by 
sending a delegation to visit Rohingya refugees in their camps.
    It could ensure that the United States is funding 
humanitarian and development assistance at generous levels. It 
can fund efforts that serve the purpose of accountability, and 
much like it created a powerful human rights tool in the form 
of the Global Magnitsky Act, Congress could signal its 
commitment to accountability by enacting a crimes against 
humanity statute to help ensure that should perpetrators from 
Myanmar ever set foot on U.S. soil they would face justice for 
their crimes.
    Mr. Chairman, thank you for opportunity to share these 
brief thoughts with the committee and I will look forward to 
taking your questions.
    [The prepared statement of Mr. Pomper follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                ----------                              

    Chairman Royce. Thank you. Thank you for being with us 
today. We appreciate it.
    We've also been joined by Sandy Levin, who's been very 
passionate about this issue, involved in it for many years and 
we appreciate the Congressman being with our committee today on 
this.
    Let me begin with a question, because the Convention on the 
Prevention and Punishment of the Crime of Genocide, as I 
indicated, the United States signed it. We ratified it. It 
defines genocide as acts committed with the intent to destroy 
in whole or in part a national, ethnic, racial, or religious 
group.
    When President Reagan signed the legislation ratifying this 
convention, he said, ``I am delighted to fulfil the promise 
made by Harry Truman to all the peoples of the world, and 
especially the Jewish people. This represents a strong and 
clear statement by the United States that it will punish acts 
of genocide with the force of law and the righteousness of 
justice.''
    Since then, the United States Government, often with the 
encouragement of Congress, sadly, had cause to make several 
determinations of genocide. We have had to do that, most 
recently finding that ISIS had committed genocide against 
religious minorities in Iraq and in Syria.
    Ms. Van Susteren, based on your reporting, do you believe 
the actions of the Burmese security forces are designed to 
destroy in whole or in part the Rohingya and do you agree that 
these atrocities are being carried out on a massive and 
shocking scale?
    Ms. Van Susteren. Mr. Chairman, if I could just break for 1 
second--that the reason that it finally got signed by President 
Reagan was because Senator Bill Proxmire from my home state was 
so forceful in trying to get that finally signed by a U.S. 
President. It took 40 years.
    Secondly, let me speak personally and not on behalf of VOA 
or the government. I don't speak for them. But I've been there. 
I've witnessed this.
    Do I think that it meets the definition? I absolutely do, 
having witnessed it. I mean, I talked to people. I walked those 
camps. I talked to them.
    The Myanmar military elected to push the Rohingya out of 
their country and it's a little bit like if six people commit 
an armed robbery in Milwaukee you don't throw everybody out of 
Milwaukee. You go after the six people.
    But they systematically wanted to get rid of the Rohingya 
and that's what they did and, of course, it hearkens back to 
the history in 1982, where they made them noncitizens with 
their constitution.
    But there's no doubt that it's done on a mass level. It's 
no doubt that they have been identified. But I should add is 
that there are other groups in Myanmar like the Christians that 
are likewise getting persecuted, but not to the magnitude or 
the number of people of the Rohingya. But it does meet, in my 
personal opinion, the definition of genocide.
    Chairman Royce. Thank you.
    Also, in talking to some of the survivors, part of the 
issue has been getting journalists into that affected area. 
What they share with me is that the attempt or the effort by 
the military in Burma to control information gives only one 
perspective every day to the Burmese people.
    And so our efforts both on getting humanitarian assistance 
in and getting journalists to cover this first hand in terms of 
what's happening in Rakhine State is a huge challenge.
    It's important that people in the region and throughout the 
world understand the facts and it's important they get that 
information in real time.
    Sadly, we saw the two Reuters reporters convicted on framed 
charges and we've heard about the major obstacles that Radio 
Free Asia is facing.
    Maybe you could talk about your experiences on this issue 
and what the VOA is doing in the face of these challenges from 
the Burmese military and trying to get the information all over 
the world but also getting it to the Burmese so that they 
understand what the rest of us are talking about and really 
comprehend not what the military is telling them is happening 
in Rakhine State but what is actually happening up there.
    Ms. Van Susteren. You used the word challenges, which is a 
nice way to say what's really happening. The press isn't 
getting in. I mean, you have got an instance where a VOA 
stringer was invited to the Rakhine State but as part of a 
press pool with limited access.
    I've been to North Korea three times and they stand next to 
you and take notes as you do anything. Well, if you're not 
allowed in--if you don't have free access you're not really 
reporting.
    You make the best of what you get. But reporters are not 
getting access to the Rakhine State. I had the Ambassador from 
Myanmar to the United States on my VOA show and he said that he 
would take me--I am still waiting--because I would like to go 
into the Rakhine State.
    But there's a reason why those two reporters from Reuters 
are spending 7 years in prison and that's because they dared to 
begin reporting on mass graves of Rohingya inside the Rakhine 
State.
    But there is no access. I think even Senator Dick Durbin 
tried to get into the Rakhine State and a U.S. senator couldn't 
get in there.
    So it's tightly controlled. The news that does come out 
often is the Myanmar military-controlled press.
    So to suggest that we are getting any accurate news, the 
best we can do is talk to the survivors and they're all giving 
us consistently the same story.
    We are all hearing the same stories and they're not all 
getting together and cooking up a story. We are talking 
individually to them and they're telling us these horrors. 
That's the best way we can get this information.
    But if Myanmar wants to be playing the world stage they 
might want to invite journalists in so we can fairly report and 
not in a controlled environment.
    Chairman Royce. Thank you very much for your testimony. My 
time has expired.
    We'll go to Mr. Engel.
    Mr. Engel. I want to again thank our witnesses today. It's 
very interesting to hear their thoughts, and the chairman and I 
are one when it comes to this kind of thing.
    When we talk about acts of genocide or crimes against 
humanity or decide what we call it, why would the U.S. State 
Department be reluctant, based on all the available evidence, 
to upgrade its current designation of ethnic cleansing to at 
least crimes against humanity, if not genocide? Anyone have a 
thought on that?
    Ms. Van Susteren. I don't speak for the State Department. I 
don't know what maybe they haven't seen it. I don't know why 
the State Department doesn't. Maybe there's a legal 
distinction. But I don't speak for the State Department.
    Mr. Engel. Okay.
    Mr. Pomper. So neither do I anymore. But I would say on 
this issue, let me not speculate about motivation but let me 
just say the findings that were released in the report make 
pretty much a facial case for crimes against humanity.
    It doesn't use the term crimes against humanity but all the 
sort of legal predicates are sort of spelled out in language 
that, frankly, does have legal weight.
    They speak about indiscriminate killing. They speak about 
widespread and large-scale violence and they speak about 
premeditation.
    All of those are the key elements of a crimes against 
humanity finding. And I don't know why they wouldn't take the 
extra step there.
    In the past, past administrations have struggled with 
issues around legal characterizations either because they 
really had trouble sort of making the legal case to themselves 
internally or because they were concerned that announcing a 
legal conclusion might put a burden on them to take policy 
actions that they weren't prepared to take.
    I fear, in this context, it might be the latter, at least 
as it concerns crimes against humanity because it seems like 
such a straightforward determination. It really seems, based on 
the way in which the report is written that they've arrived at 
that conclusion and just been reluctant to articulate it.
    Mr. Engel. Thank you.
    The civilian Government of Burma seems to be focused on 
economic development in northern Rakhine State as the way to 
encourage Rohingya to come home, notwithstanding the desperate 
economic conditions there.
    These efforts seem devoid of an acknowledgment of the 
systematic denial of basic human rights which Rohingya in 
northern Rakhine State have endured for decades.
    So given the challenges of Rakhine State and the mixed 
results of peace-building and transitional justice initiatives 
following mass atrocities in other parts of the world, what 
would potential transitional justice mechanisms look like for 
Burma? What kind of initiatives should we be supporting as part 
of a broader policy toward Burma?
    Ms. Van Susteren. First of all, inviting them back, they've 
got a problem is that, number one, they're noncitizens. They're 
not people under the constitution.
    Secondly is that for a while they're saying they'd have to 
have some identification cards to come back. But it's not like 
they walked out with a passport and a driver's license. I mean, 
their homes were burned to the ground and everything they had.
    They left with the shirt on their backs, if they had a 
shirt on their backs, and oftentimes not with their children if 
their children have been murdered or wandered off.
    So it's a little unrealistic to think that this is some 
sort of economic development. I think sort of even before we 
get to that there has to be some recognition that these are 
people and we are not even there, and I think the condemnation 
as genocide is helpful.
    Obviously, sanctions, as has been suggested, has 
historically been somewhat helpful. But I think that we are so 
far off from thinking that they're going back anytime soon.
    Mr. Pomper. I agree with that. I think, in order to have a 
transitional justice mechanism to begin thinking seriously 
about them, you need to have a real transition and this is, at 
best right now, a stalled transition.
    You have a situation where there really isn't meaningful 
access to many areas of northern Rakhine State by humanitarian 
actors, that access is controlled by the Tatmadaw.
    You don't have a recognition of the catastrophe that's 
happened on the part of either the civilian or the military 
leadership. You don't even have a civilian leadership that's 
willing to call these people by their name.
    Without these kinds of predicates, thinking about a 
transitional justice mechanism, which is the kind of mechanism 
you would put in place when you had a sort of consensus--a 
political consensus in the country--that there was a time to 
take a step forward to a new political moment, we are not there 
yet. There's too much that needs to be done.
    Mr. Engel. Thank you.
    Let me ask one final question. Some of our colleagues in 
the Senate would argue that disciplinary measures against 
Burma's military might make it harder to transition to 
democracy and end the civil war.
    However, the U.N. fact-finding mission report found that 
these same military leaders are one of the greatest barriers to 
democratic reform.
    So given the political entrenchment of the Burmese military 
and the constitutional weakness of the civilian government, 
what can be done by the United States or the international 
community to encourage the military to get out of politics?
    Ms. Van Susteren. Well, first of all, we thought that 
lifting the sanctions in 2012 some of the sanctions would 
somehow coerce them--it was a recognition of moving toward a 
democracy.
    That, obviously, didn't work and, again, I am speaking as 
myself. We can't police the world and I don't think we can 
police the world. But we don't have to participate. We don't 
have to let people participate in the world like the military 
leaders who are behind this.
    So I don't know how you get the military to sort of back 
off. We've tried many things over many decades. But I think 
letting them participate in the world and the United States not 
taking a stronger stand makes it--I think we should take a 
stronger stand.
    Now, the reference to the International Criminal Court--if 
that worked I would be all for it.
    But the International Criminal Court has been somewhat 
feckless historically. It has had an outstanding genocide 
indictment against President Bashir of Sudan for, I don't know, 
what--5, 6, 7, 8 years and nothing has been done. So I don't 
think we can think of the ICC as some answer to all this. I 
think it really is incumbent upon the United States and 
Congress to make a decision about what kind of statement it 
wants to make.
    But I think what's been most successful, and not 
particularly successful, is when the United States takes a 
strong stand and doesn't participate with nations that are 
doing ethnic cleansing or genocide.
    Mr. Pomper. I will--just a couple of thoughts about this. I 
think the challenge that all international criminal justice 
mechanisms face is they don't have enforcement powers of their 
own. They really need to rely on member states to enforce their 
warrants and their judgments.
    So if the international community gets behind an 
accountability effort, which I think is certainly warranted in 
this case, it's also going to be important to do the diplomacy 
that's necessary to mobilize the international community to 
deliver on judgements that are reached and warrants that are 
issued.
    In terms of the question, how to bring the military along 
on this case, I mean, I tend to agree there's not a magic 
bullet.
    I think the impulse is going to have to be sort of driven 
from--internally by a reform effort that, frankly, just is not 
evident right now--that that group or that basis of reformers 
has not, I think, yet materialized.
    I think one hopes that the kinds of pressure tools that 
we've talked about targeted sanctions, threats of 
accountability, and the like can help demonstrate that this is 
not a satisfactory status quo for anybody involved.
    And then I think the other piece of this is continued 
engagement and a conversation with the civilian leadership and, 
frankly, conversations with the military leadership as well to 
make the point that if Myanmar wants to progress, if it wants 
to diversify its ability to engage diplomatically and 
militarily with a full range of international actors, then it's 
going to need to evolve beyond the sort of straitjacket that 
it's placed itself in at this point.
    Mr. Engel. Thank you. Thank you very much.
    Chairman Royce. Yes, thank you, and I think Beijing's 
pressure to the Security Council has been a very real 
impediment to trying to move the international community on 
this, given their veto.
    We go to Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce and 
Ranking Member Engel, for holding this important hearing.
    It's great to see you again, Greta. Thank you for 
everything that you have been doing with your VOA show and 
shining a light on--and your important advocacy on human rights 
issues on your show every week.
    And thank you, Mr. Pomper, for being here to testify in 
front of us. For years now many of us on this committee have 
been speaking out in support of the Rohingya people.
    In 2014, we supported a resolution that this committee 
passed--Jim McGovern's House Resolution 418, which called for 
an end to persecution and for the U.S. to take more action on 
behalf of the Rohingyas.
    In the years since, members of our committee have sent 
letters after letters asking for the administration to take 
more action, urging more pressure on the Burmese Government, 
sanctions against those responsible for this genocide, access 
for humanitarian assistance.
    And just last month, we joined a letter by Ranking Member 
Engel urging the administration to levy additional sanctions 
against Burma's military leadership to make a public 
determination over this genocide.
    And this month we sign on to Jan Schakowsky and Ranking 
Member Engel's letter again expressing concern about the 
imprisonment of the two Reuters journalist.
    The list goes on and on, and in the wake of the U.N. report 
saying that the Burmese military actions meet the legal 
threshold of genocide, which we've been discussing, it also 
called for a formal international independent investigation 
into these crimes.
    And it's important to note Ranking Member Engel's BURMA 
Act, which still needs to be passed and that aims to impose 
additional sanctions and ensure accountability about the human 
rights violations in Burma.
    We had Joe Crowley and Steve Chabot, who's a wonderful 
member of our committee, pass an important bill condemning the 
ethnic cleansing going on.
    So, many efforts on behalf of Members of Congress, 
especially of this committee, but we need to start seeing 
results with real consequences--real deterrents to stop this 
genocide from happening.
    And the administration has commendably implemented some 
necessary sanctions. But it's also important and necessary to 
ask was there anything that could have been done differently.
    When Aung San Suu Kyi returned to Burma's political process 
in 2011, so many were encouraged by very limited democratic 
steps. But, as I said in 2012, it was far too soon to start 
easing sanctions as the last administration was committed to 
doing, never mind its outright lifting of sanctions in 2016.
    This is not to say that anyone but the Burmese military is 
responsible for the genocide. But, Greta, I would ask you is 
this a case of moving too fast too soon? Was the easing and 
lifting of economic pressure and sanctions against Burma's 
military regime a case of wishful thinking and how can we make 
sure we don't make this mistake again?
    Ms. Van Susteren. First of all, 20/20 hindsight is far 
different than reviewing something at the time. At the time 
that the sanctions were being considered for lifting and that 
they were actually lifted, I thought it was a good idea. I 
think we'll try anything, encourage anyone to be a democracy.
    So I had hoped and I think everybody else involved with it 
had hoped that those sanctions would encourage a greater move 
toward democracy in Myanmar.
    It has not turned out that way, despite everyone's best 
effort and the U.S. Government's best effort to do that. I 
think, and you have listed, Congresswoman, all the many things 
that Congress has done--the letters--and I tell you, in my 
personal opinion, those are so well received and it's so 
appreciated.
    I mean, the fact that holding the hearings today for these 
people who are a bazillion miles away sitting in horrible 
deplorable conditions and the fact that the U.S. Congress cares 
about them certainly should be significant to the American 
people. It shows about what we are.
    Frankly, if I have any sort of disappointment in what you 
have laid out, my disappointment really is in my own business 
in the media. I think the media has large--I mean, there's a 
lot to report on the world. I got that.
    But I don't think the media has put the spotlight on this 
story enough so that enough people are informed about it so the 
American people can participate in this and help as well to 
give some sort of guidance to their leaders--the Members of 
Congress. It takes 2 seconds to tweet something and it goes--we 
all have 1 million followers in the media.
    So, I thank Congress for what it's doing. I appreciate what 
the Obama administration tried to do and was ineffective. But 
we are in a new time and I hope now that there's a bigger 
spotlight on this and I hope that Congress can fashion 
something. My personal opinion is I would like to tighten the 
sanctions on those military leaders because I see that as the 
problem.
    Aung San Suu Kyi, we all hoped that she was going to be the 
answer. But she doesn't have much power as a civilian leader.
    I think we sort of almost built up in our own minds that 
she was going to be able to do these magical things. She won't 
even mention the word Rohingya. She won't even say that and 
maybe she's worried for her life.
    I don't know what it is but she won't even say that. But I 
think we can stop putting our money on her. I don't think that 
she has the power and she hasn't indicated the willingness, 
although I would hope things have changed.
    But I think it's really going to take a collective effort 
and I really call out the media. It takes 2 seconds to tweet 
things and it doesn't take a lot to report on this because we 
need to give you guys the spotlight by informing the American 
people so people care about this.
    Ms. Ros-Lehtinen. Well, thank you. My time is up, so now I 
get to interrupt you.
    Ms. Van Susteren. Okay.
    Ms. Ros-Lehtinen. Thank you so much for your advocacy. 
Thank you, Mr. Chairman.
    Chairman Royce. Thank you. Thank you.
    We go to David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman, and I thank you and 
the ranking member for calling this hearing and thank our 
witnesses.
    I was on the trip--the fact-finding mission with Senator 
Durbin and Senator Merkley in November and I want to begin by 
saying thank you to Greta Van Susteren for the attention you're 
bringing to this.
    I do hope that maybe as a result of this hearing that there 
will be additional attention from the media because it was the 
most haunting trip I have ever made.
    We had the opportunity to hear directly from members of the 
Rohingya community in Bangladesh about unspeakable atrocities 
and they showed us the burns on their bodies and recounted 
stories of the slaughter of their children and family members, 
and it is horrific.
    And we were in fact denied the right to go into the Rakhine 
State, and as a kind of consolation prize they took us to Aung 
Mingalar, which is a ghetto in Myanmar where they've rounded up 
the Rohingya, taken them away from their homes, and they are 
forced to live in this ghetto. They ran businesses, had shops 
nearby.
    They're not allowed to work in those shops anymore. There's 
no education, no health care, and they've done nothing at all 
other than be Rohingya and they're put into this. And so they 
were very proud to show us this place as an alternative.
    We then heard stories from that government that, oh, no, 
the Rohingya burned down their own villages. I mean, it was 
just horrific. There was no willingness to accept 
responsibility in any way. So I appreciate the work that you 
have both done to bring attention to this.
    My first question is in terms of an ICC referral, you know, 
having an international forum where some evidence can be 
presented so the world can understand what's happening, it 
seems to me, would be very useful and I am just wondering, Mr. 
Pomper, what you think would be the consequence if the United 
States stood in the way of that.
    The reason I raise that question is Mr. Bolton has said in 
a speech that we don't believe in the ICC--we'll never 
cooperate or assist them in any way.
    And so in this moment this becomes particularly important, 
in my view.
    Mr. Pomper. Thank you for the question.
    I mean, I agree generally with the tenor of the 
observations that have been made today that the United States, 
by itself, is obviously a very powerful voice and a powerful 
actor and can be a real leader on situations like this.
    But it's most effective when it also works with 
multilateral institutions that have within their remit 
addressing these kinds of situations.
    And in this particular context, two of the leading 
institutions that have those capabilities and that have that 
remit are the Human Rights Council and the International 
Criminal Court, and those are two institutions that this 
administration has spared no effort in recent months attacking 
their legitimacy, and I think that's a terrible mistake.
    And I think you saw a little bit of a tacit recognition of 
that when Ambassador Haley associated herself with the fact-
finding commission's findings when she spoke to the Security 
Council.
    That fact-finding mission was mandated and supported by the 
U.N. Human Rights Council and it's an extremely credible 
commission and the work that it's done has been absolutely 
critical in framing international conversation around these 
atrocities. Why one would delegitimize that is absolutely 
beyond me.
    I think as far as the International Criminal Court I would 
make a couple of observations. First, the International 
Criminal Court has actually already seized itself of this 
matter.
    It's done so in an incomplete way. There was a judgment by 
a pre-trial chamber of the court recently that asserted 
jurisdiction over certain crimes that have, as part of their 
predicate, actions that took place in Bangladesh, which is a 
state party to the ICC.
    So it has partial jurisdiction. Obviously, a referral by 
the Security Council would give it greater jurisdiction and 
would allow it to do a more complete job in terms of 
investigating and potentially prosecuting these cases at some 
point.
    I think that would be useful. But it's also important to 
give them the support that they need to do that.
    Mr. Cicilline. All right. Thank you very much.
    I think also one of the principal issues that you both 
touched upon is the stripping of citizenship. We had the 
opportunity to meet with members of the National Assembly--
their parliament--who were elected and served the members of 
the Rohingya community that have now been stripped of their 
citizenship.
    So to say to these folks, you are not citizens of this 
country when they served in the government I think shows the 
absurdity and I think the question of how do you have a 
repatriation process that makes sure that the Rohingya can 
return safely and with full citizenship so that they can return 
to their country free from intimidation, the fear of death and 
violence, I think is, obviously, an important issue.
    And I know Aung San Suu Kyi, who may not have a lot of 
power in the current construct, has a lot of moral authority 
and she has completely failed in any way to speak out against 
this violence, to acknowledge it.
    The fact that she may have less power than the military may 
in fact be true but she has the power of her voice and her 
international standing and she has completely failed in that 
responsibility and it's been a grave disappointment to many of 
us here in Congress.
    And I know my time has run out, but I thank you again for 
your thoughts, and yield back.
    Chairman Royce. We go to Mr. Dana Rohrabacher of 
California.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    Where does the Burmese military get their weapons and 
ammunition? What type of weapons and ammunition do they have?
    Ms. Van Susteren. I will defer to you. Do you know that 
answer? I don't know where they get them.
    Mr. Pomper. I would be speculating. I am sorry.
    Mr. Rohrabacher. We know they're shooting people. We have--
--
    Ms. Van Susteren. They use a lot of machetes, they burn, 
and they rape. So that's been their----
    Mr. Rohrabacher. Well, I don't like----
    Ms. Van Susteren. They've weaponized a lot of things like 
that. But I don't know about their weapons.
    Mr. Pomper. Not from the United States, which has an arms 
embargo in place.
    Mr. Rohrabacher. Right. So would I be just really off base 
if I suggest that it's very possible that the Chinese are 
providing the Burmese military the weapons they need for these 
type of actions?
    Mr. Pomper. You're free to suggest that. Certainly, not a 
crazy suggestion.
    Mr. Rohrabacher. All right. Well, let me just note that the 
type of genocide and brutality and mass killings that the 
Burmese Government has been known for for three decades now, at 
least.
    I remember being very active when trying to support the 
Karens and the others, and the Burmese Government and their 
military has not just been focused on the Rohingya, which we 
need to worry about today because those are the ones who are 
bearing the brunt of this brutality and genocide, but this is a 
history of this type of activity and we should know where their 
weapons are coming from.
    And I would suggest they're probably coming from China 
and----
    Chairman Royce. Mr. Rohrabacher.
    Mr. Rohrabacher [continuing]. We should do something about 
it. Yes, sir?
    Chairman Royce. If the gentleman would yield.
    Their weapons do principally come from China. One of the 
oddities is that the other separatist ethnic groups in Burma 
also are supplied. The Chinese sell them weapons as well.
    So they sell the weapons to the government in Myanmar and 
they sell weapons to different ethnic separatist groups.
    Mr. Rohrabacher. So it sounds like--thank you, Mr. 
Chairman. Thank you for this hearing, by the way. I appreciate 
your leadership, as usual, on human rights issues.
    And let me just note, the chairman and I had a difference 
of opinion on the title of the Magnitsky Act but not the 
substance of the Magnitsky Act.
    Is this time for us to have sanctions against the specific 
leaders of the Burmese military?
    Mr. Pomper. Yes.
    Ms. Van Susteren. And, again, I am not here representing 
the Voice of America or the government, but let me answer 
personally. Yes.
    Mr. Rohrabacher. All right. So, Mr. Chairman, today I would 
hope with that whatever comes out of this hearing that we stand 
together and that we are going to hold the individuals and 
leadership of the Burmese military responsible--personally 
responsible--as well as the government itself, and let us 
declare that the Government of Burma is an outlaw among nations 
because this is not inconsistent with their behavior over the 
last 30 years and the military has--and we declared that the 
military is guilty of crimes against humanity.
    So one of the things I would be--now, those are things we 
can recognize now. What I don't understand is how come we are 
the ones that are upset? Where are Saudis and all of these 
wealthy Muslim countries that have enormous resources available 
to them? Why are they permitting their fellow Muslims to live 
in this type of brutality and squalor?
    Ms. Van Susteren. Well, I can't answer those questions 
either but I can tell you that Bangladesh is very upset because 
this is very difficult for that nation. That's not a rich 
nation----
    Mr. Rohrabacher. That's right.
    Ms. Van Susteren [continuing]. And they--and this----
    Mr. Rohrabacher. Bangladesh has almost no money for 
helping. We know there are several countries in this world that 
are Islamic countries that have enormous resources, and are 
they the helping?
    Ms. Van Susteren. I can't answer that. I can tell you that 
there were some NGOs from different countries like Doctors 
Without Borders. But that's France. But I don't know if any of 
these other nations--I would defer to you, Mr. Pomper.
    Mr. Pomper. So I can't give you a complete answer. But I 
recall from actually your reporting that there's a very 
substantial number of Rohingya refugees living in Saudi Arabia.
    I also know that the Organization of the Islamic Conference 
has been very active diplomatically.
    Mr. Rohrabacher. I didn't catch that. The Saudis and the 
Kuwaitis and the Qataris--are they kicking in to help the 
Rohingya people?
    Mr. Pomper. I don't know how much money is flowing from 
those.
    Mr. Rohrabacher. Well, when you see pictures of standing in 
this--the horrible--in the middle of this village or the 
horrible conditions that you just showed us, it is more than 
disappointing to think that, okay, we need to be concerned but 
what about these filthy rich Muslim countries. They don't allow 
Syrian refugees in.
    They expect Europe to take all of them. They aren't even 
helping the Rohingyas and other people who are being targets of 
genocide. Shame on them. Shame on them, and I would hope that, 
Mr. Chairman, that they're listening right now.
    But all we can do with us is we can make our own commitment 
to having standards and, Mr. Chairman, thank you for the 
leadership and the Magnitsky Act, although I disagree with the 
title, and other things like this that you have made sure that 
we are part of the solution and as compared to the Saudis and 
the Chinese.
    Thank you.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    We go to Mr. Brad Sherman of California.
    Mr. Sherman. Thank you. I also believe the Islamic world 
should be doing more. To just commit diplomatic resources is 
not the same as hundreds of millions or billions of dollars.
    It's my understanding that the United States is by far the 
most generous of all countries in this and many other crises.
    Many of us supported the efforts of Aung San Suu Kyi. We 
met with her. We pushed. We adopted sanctions, and it is 
disillusioning to the entire democracy and human rights 
movement worldwide. How do I get people involved in the next 
human rights champion--in the next democracy champion when we 
see someone with a lot of influence use that influence to 
protect the military of Myanmar?
    Now, in September 2018, I joined with several of our 
colleagues on a bipartisan letter urging Secretary Pompeo to 
press for the release of the two Reuters journalists who were 
sent to prison for 7 years. I am so troubled that Aung San Suu 
Kyi has defended the conviction of these journalists.
    Ms. Van Susteren, you speak as much as anyone for the 
journalistic community of this country. What should we be 
doing?
    Ms. Van Susteren. Well, first of all, let me just add to 
this that I appreciate that letter, on behalf of journalists, 
and I shared disappointment with the U.S. media. Why aren't we 
hearing about this from my fellow journalists more? I mean, 
that would help.
    This is a partnership. The media can't do it alone. 
Congress can't do it alone. Nobody can do all this alone.
    So I share that sort of disappointment with the 
journalists. They are not, of course, the only journalists held 
in jails across the world. But these two journalists, just to 
fill in the gap, were framed by the police.
    They were given some documents and in a restaurant, and as 
soon as they walked outside the restaurant they were arrested 
for having the documents. So it's terrible.
    Aung San Suu Kyi, a huge disappointment. Maybe we expected 
way too much of her but we can all sort of look back and think, 
what could she have done? I think it really sort of behooves us 
to sort of in this crisis, as we look at what's happening to 
the people now, to figure out what can we do for them.
    But the people in this camp, they're penned in. They can't 
leave. They can't go to school. They can't do anything. It's a 
breeding ground for all sorts of diseases and for trouble--
which is one of the reasons why the director of Voice of 
America wants to get news into the camp so that people see that 
there's opportunity outside the camp and that at least there 
are people paying attention.
    Mr. Sherman. The purpose of the Burmese military--the 
Myanmar military--is to ethnically cleanse the area, to reverse 
what they think is the wrongful act of people moving into their 
country 100 or 1,000 years ago. Most American families have 
moved into this country in the last 100 or at least the last 
1,000 years.
    And so we can hope that there are well maintained refugee 
camps in Bangladesh. But that achieves the purpose of what 
seems to be a genocide and a crime against humanity.
    I would point out that when the Government of Sudan waged 
war against its own people in the south, we saw an independent 
South Sudan. Now, things didn't work out recently.
    Mr. Pomper, if north Rakhine State was either independent 
or part of Bangladesh, would its people be safe on their own 
land? Because we know they can be more or less safe in refugee 
camps, but then they have limited opportunities.
    Mr. Pomper. So forgive me, sir. I am going to resist the 
logic of the question a little bit for the very reason that you 
said, which is that I think these kinds of separationist 
solutions, unfortunately, honor the logic of ethnic cleansing 
and I think at this point the best way to think about this is 
in terms of trying to affect a situation where it is actually 
possible for the Rohingya to come back----
    Mr. Sherman. You really think that the Rohingya could move 
back and wouldn't be killed 2 years from now, 10 years from 
now, 20 years from now?
    Mr. Pomper. I don't----
    Mr. Sherman. Do you really think that they can live in 
peace and security and confidence in a land controlled by the 
Burmese military?
    Mr. Pomper. So let me answer the question in two parts.
    I think, first, if the government succeeds or the Tatmadaw 
succeeds in this campaign, what is to stop it from then moving 
down the list of ethnicities with which it has similar 
grievances?
    Mr. Sherman. Well, if it grants independence to each of 
those ethnicities, that's exactly what they don't want to do. 
If the Burmese state loses north Rakhine as part of its 
sovereign territory, it's not going to want to repeat that 
elsewhere.
    Mr. Pomper. I would worry about the precedential value 
inside Myanmar and I would worry about the precedential value 
outside Myanmar as well.
    I think, in general, the best solution under these 
circumstances--and I agree, it's difficult to look into the 
future and say 2 years, 5 years, 10 years from now we will 
certainly be in a situation where we know that this will be 
solved in terms of creating the circumstances for repatriation, 
but that needs to remain the objective at this point. In the 
meantime----
    Mr. Sherman. Well, I think we are in favor of repatriation. 
What the question is are we in favor of the Burmese military 
having sovereignty over the repatriated individuals.
    Mr. Pomper. The Burmese military should not have 
sovereignty over anybody.
    Mr. Sherman. Well, the Burmese military can operate in the 
territory of Burma--or Myanmar--and as long as that--asking the 
people to go back and say that's the army of the country I will 
live in and I hope they don't rape my wife and slaughter my 
children, but that's why I move back----
    Mr. Pomper. So I think you put your finger on it when you 
referred to----
    Mr. Sherman. Safety requires a government that is dedicated 
to your safety rather than dedicated to your extermination.
    Mr. Pomper. Correct, and it also requires civilian control 
over a military that----
    Mr. Sherman. Well, the civilian control is also in favor or 
defending what's going on.
    I yield back.
    Chairman Royce. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman, and thank you for 
holding this very important hearing.
    In the past month, two reports were published detailing how 
horrific the crimes actually were that we are discussing here 
today.
    First, at the end of August the U.N. fact-finding mission 
on Myanmar released a preliminary report that argued that the 
Burmese military had genocidal intent against the Rohingya and 
called for a competent international authority to try cases 
against the individuals responsible.
    The final report, issued just last week, makes the case 
even clearer, and in a hearing like this it's really hard for 
any of us to comprehend the horrors that happened to the 
Rohingya during that period of time--what they endured.
    These were human beings that endured some of the most 
horrific things that's possible in human existence and I would 
ask unanimous consent that the full U.N. report, which I have 
here, be entered into the record.
    Chairman Royce. Without objection.
    Mr. Chabot. And this report contains in great detail those 
horrors which, again, in a civilized hearing like this it's 
hard to speak about those things.
    The second report, from the State Department, was released 
2 days ago on Monday evening. This spring, the State Department 
commissioned a survey of Rohingya survivors in Bangladesh 
together from eyewitnesses and Monday's report discusses their 
stories, and the report calls the violence extreme, large-
scale, and widespread and states that, ``The scope and scale of 
the military's operations indicate that they were well planned 
and coordinated.''
    Of the, roughly, 1,000 Rohingya refugees interviewed the 
vast majority--about 80 percent--witnessed killings and the 
destruction of villages. So these are people that actually saw 
other people murdered, and probably most of the people, 
hopefully, in this room haven't experienced that in their life. 
But we are talking about 80 percent of those people actually 
saw one or more people slaughtered.
    In total, we know that 400 villages were burned. Further, 
about half of those surveyed actually witnessed a rape.
    Statistics really only tell part of the story. The true 
perversity of these atrocities is clear from the types of 
crimes the military committed.
    Widespread gang rape, mass murders, throwing infants and 
children, literally, into fires, and burning the elderly in 
their own homes. The report describes in gruesome detail 
various crimes, and I can't read this stuff--it's so horrific--
and I am not going to.
    But we are talking about pregnant women who were literally 
murdered and their unborn children destroyed in front of them, 
and as was mentioned, babies thrown into rivers and their 
mothers shot. There's no way in the 21st century this ought to 
happen anywhere.
    And I want to thank Mr. Pomper and Ms. Van Susteren for 
coming here today and sharing this with us and trying to make 
sure that the world knows what happened and that there's 
accountability here.
    This havoc occurred against a group of people but there was 
another group of people that did it, and they still exist and 
they're still in power, and something has to be done about this 
or it will happen again.
    So with the facts and the reports that I mentioned in mind, 
I, along with a number of my colleagues on both sides of the 
aisle, plan to introduce a resolution condemning the Burmese 
Government's crimes and their efforts to suppress information 
about those crimes and to call it what it is--what it was--and 
that's genocide.
    Words are not enough, however, which is why I also urge the 
swift passage of the BURMA Act, legislation that Ranking Member 
Engel and I wrote to apply sanctions on those individuals 
responsible for these horrific crimes.
    As I say, these perpetrators must be held accountable.
    Mr. Pomper, let me ask you about that. As I mentioned, Mr. 
Engel and I introduced the BURMA Act to impose sanctions on 
those responsible for the genocide. You mentioned sanctions in 
your testimony.
    Is that appropriate? Is that one of the tools that we 
should at least consider? What would be your opinion on that?
    Mr. Pomper. Yes, targeted sanctions are an appropriate 
tool. They send an important signal and they should be applied 
against the perpetrators.
    Mr. Chabot. Okay.
    Ms. Van Susteren, let me ask you this, and I am running out 
of time. I am co-chairman of the House Freedom of the Press 
Caucus and concerned about the two Reuters journalists 
imprisoned in Burma.
    Earlier this month, many of us on this committee sent a 
letter to Secretary Pompeo asking that he continue to advocate 
for their release. And as a journalist yourself, I would like 
to hear your perspective on that case and whether you think 
that international pressure could be effective in securing 
their release and what, if anything, else ought to be done to 
secure that release.
    Ms. Van Susteren. I think that the pressure of that would 
help enormously for these reporters. When I went deep into 
these refugee camps--now, obviously, you're talking about into 
Myanmar where they're held--is that the refugees were aware of 
things that were being done inside the United States.
    So the word does get out. It's far away but that does send 
some sort of hope that somebody cares. You went through the 
litany of things that you have read about. When I've been there 
and these people tell me these things that happen, you just 
stand there sort of--it's just thoughtless. You can't imagine 
these things can happen to human beings. So it's just 
incredible.
    But the reporters trying to report it can't even get to 
them inside Rakhine and there's no way that we are going to get 
this word out if they can't get there and if Myanmar is going 
to lock the journalists up who try, few journalists are going 
to risk their lives.
    One of the journalists you talked about--one of the Reuters 
reporters--I think his wife had a baby while he's been locked 
up. So, he's got 7 years before he'll live in a home with his 
child.
    So I think that pressure from the United States--it does 
mean something. I mean, people look up to the United States and 
our freedom of the press and the Constitution and we are quite 
proud of it and it's very important to our Government, and I 
think that if the United States puts pressure on it I think it 
will help them.
    I am not saying it's a magic bullet. But it, certainly, 
does send a message.
    Mr. Chabot. Thank you very much, and my time has expired, 
Mr. Chairman.
    Chairman Royce. Thank you.
    We go to Norma Torres of California.
    Ms. Torres. Thank you, Mr. Chairman, and thank you to our 
guests that are here today.
    It is incredibly offensive to humanity the crimes that we 
are seeing coming out of this place. It is unfortunate, I 
think, that the military has been in power and continues to be 
armed by China to commit these horrible crimes.
    I don't think that we truly understand how many women and 
how many children have been born out of rape and I don't know 
if we'll ever truly understand the fact that we can't get into 
Burma to assess the situation as reporters. It is incredibly 
disappointing and unfortunate.
    But more disappointing than that, as a community and world 
leaders have stood by and I think where is the responsibility--
where does China stand on this? Are they just being complicit 
by supplying the weapons that are going into the military?
    Mr. Rohrabacher asked that question earlier about the 
Chinese weapons that are being used by the Burmese military. So 
how would you characterize China's involvement in Burma and if 
China wanted could it force the Burmese military to change its 
policy?
    Ms. Van Susteren. In terms of China arming them, I am just 
learning that here. I didn't know that. But a lot of the 
destruction I saw didn't take any weapons. It took a match, it 
took a machete, and it took raping women and putting fear, so a 
lot of that.
    The question is whether China would show any sort of moral 
leadership to try to encourage the Myanmar military to stop 
doing those things.
    Ms. Torres. With a 1,500-mile border, you would think that 
they would show some leadership.
    Ms. Van Susteren. Yes, if they bothered to even recognize 
these people as human. They're not----
    Ms. Torres. Which was exactly my point as I began.
    Ms. Van Susteren. I mean, they are not recognizing them as 
human, and to the extent that they continue to be corralled 
without any chance at education, they can't work, they can't do 
anything. The women, by the way--you talk about the women--I 
met women who were pregnant--I was there about 9 months after a 
lot of them had left--who were pregnant and they didn't know if 
their babies were their husbands' or whether it was the Myanmar 
military.
    But it didn't matter, because they were said to have evil 
in their bellies and they were shunned. And the women are 
sitting in these huts in this God-awful weather--monsoon--where 
it's about 100 degrees that we can't stand it, and they don't 
even come out.
    I mean, it gets far more graphic and terrible than we can 
ever put on the screen or put in a report. I mean, it's just 
incredible.
    I so much appreciate the delegation that has come from 
Capitol Hill to go there and see some of this stuff because it 
really does bring it home when you see it. That's why I love 
CODELs.
    Ms. Torres. I want to make one more point. I think that we 
can all agree that Aung San Suu Kyi has failed to stand up 
against the Burmese military. She's failed to stand up for 
these children. She's failed to stand up for these women, and 
she's failed to stand up for basic human rights.
    But, yet, I know that the Nobel Committee does not 
generally revoke Nobel Prizes. But should they make an 
exception for her, given the gravity of what has taken place in 
Burma?
    Ms. Van Susteren. Well, I don't speak for them and I don't 
know. So I am going to duck that question. I just know that she 
won't even say the word Rohingya and that she identifies about 
26 terrorists of ARSA--the terrorist group of Rohingya--and she 
is content to have 1 million people essentially persecuted for 
the conduct of a few.
    Ms. Torres. You were talking about American focus on this 
atrocity that is happening there. Where is the international 
community--something as simple as this--to send a clear message 
that, as human beings, we are not going to tolerate this? It 
is, to me, just--they are being complicit to what is happening 
there.
    Mr. Pomper. I will link that comment back to your questions 
about China. I mean, one place where China has been, 
unfortunately, very effective in a negative way has been in 
terms of blocking a clear statement by the U.N. Security 
Council.
    Ms. Torres. Absolutely.
    Mr. Pomper. And that would be very--the things that the 
Council could do--the tools that it could bring to bear--
probably could be pretty effective in sending a clear signal 
and applying meaningful pressure through sanctions, through 
referrals, et cetera.
    And so I think China is a very, very good target for 
diplomatic suasion in this case because they are standing in 
the way of meaningful action and that clear voice you're 
talking about.
    Ms. Torres. My time is up, Mr. Chairman. Thank you so much.
    Chairman Royce. Thank you, Congresswoman Torres.
    Scott Perry of Pennsylvania.
    Mr. Perry. Thanks, Mr. Chairman.
    Ms. Van Susteren, Mr. Pomper, thanks for being here.
    We met a year ago tomorrow on this very subject and 
lamented the circumstance where we sit here, comfortably, and 
these people are being slaughtered halfway around the world and 
we have conversations, but there's no action and that's the 
frustration of this place. There is no action.
    But the United States and the world can't turn their face 
away from what is happening. Seventy years ago this happened 
halfway around the world and people were shoved into ghettos 
and exterminated and now we see it happening in Burma and 
across the little portion of water where they're all housed and 
corralled in.
    And I applaud you, Ms. Van Susteren, as a member of the 
press. Eighty years ago a man won a Pulitzer Prize for lying 
about the terror famine executed by Russia in Ukraine and that 
Pulitzer Prize still hangs today in the New York Times office, 
as far as I know.
    So it's important that we see, that we hear, that we are 
made aware of what's happening. I remain frustrated because I 
don't see any action. The U.N. is not going to be--unless, Mr. 
Pomper, and I doubt--Ms. Van Susteren, it's not your expertise 
but, Mr. Pomper, I doubt you can tell me that the U.N., with 
China and Russia involved, are going to support the United 
States or any of the freedom-loving countries of the world in 
robust meaningful action against the Burmese military, right? 
They're not going to do anything. The U.N. is going to be 
feckless.
    Mr. Pomper. Things do not look good at the Security 
Council.
    Mr. Perry. Yes, they don't--yes.
    Mr. Pomper. The Human Rights Council might be a different 
story.
    Mr. Perry. That's a larger discussion. But I guess for you 
I have a question. China is, in my opinion, enabling this 
whether it's arms or whether it's their agreement with Burma 
and the port, and while the President is offering trade tariffs 
on China regarding their malign behavior around the world and 
particularly the United States, is it time to sanction China?
    Is it time to sanction--use the word sanction--China for 
this action? Will it make a difference.
    Ms. Van Susteren, the Voice of America--you're saying we 
want to get that information into the camps. We want to inform 
them that people around the world and people in the United 
States. We want something done about it. We understand their 
plight. We are horrified by their situation.
    Is there something impeding that effort?
    Ms. Van Susteren. Well, first of all, I have to tell you 
that the director of the Voice of America, Amanda Bennett, who 
first approached me about telling me that she wanted to get 
information into it and it reminded me a little bit of the 
mission of Voice of America with the Iron Curtain. It was to 
get information behind the Iron Curtain.
    When I went into the camps, I was surprised, you know, at 
how hungry they were for information. The refugees inside--they 
were getting little bits and pieces and I don't know what tools 
or what's needed by Voice of America or what they need. I don't 
know that. I am not privy to that. It's above my pay--my 
volunteer job pay grade.
    But I do know that if we can get more information into the 
refugee camp, if we can get broadband in or if you can get 
radios in and they can hear a little more that certainly would 
benefit the people inside because they are completely lost. I 
mean, even hearing that the United States has a congressional 
hearing at least gives them a little hope that somebody cares 
halfway around the globe.
    And I always think putting a spotlight on a crisis--if the 
American media were more engaged in this I think more people--
maybe China would pay a little more attention to it.
    I don't know. I think that's important. But I do think 
getting Voice of America inside that camp and getting 
information would help.
    Mr. Perry. Okay. So that's a do out for us here on this 
committee and in this body to do a better job and to find out 
what the hang-up is and what the holdup is and what the 
obstruction is and take action.
    Ms. Van Susteren. That hang-up may be on the ground, 
though. It may not have anything to do with the United States 
or Voice of America. I don't know. That's above my pay grade.
    Mr. Perry. I understand, but we got to understand that and 
try and--we want to be people of action. We want to see some 
results, right--that talk is cheap but people are suffering.
    Mr. Pomper--China.
    Mr. Pomper. I think I agree with what Greta said about 
trying to raise the profile of this issue. I think the U.S. 
Government could be speaking with a much clearer voice.
    I think there was a lot of value in the report that the 
State Department put out earlier this week. But it was a little 
bit of a missed opportunity in terms of using specific terms 
about their legal conclusions, which I think they pretty 
clearly had reached. That's just my supposition, based on 
reading it.
    I think it's important to pressure China through diplomatic 
channels by making clear that we see what's going on--that 
we've analyzed it. We should associate ourselves with the good 
work that's done by international bodies on this.
    Mr. Perry. With all due respect, Mr. Pomper, everybody 
knows. China knows that these Burmese people--these military 
officers that have been designated as specially designated 
nationals and blocked persons and put on that--they don't care.
    If you're willing to hack somebody apart with a machete, I 
don't think you're worried about being put on a list as a 
designated bad person.
    So while the diplomatic--look, that's--we wish that would 
always be effective. What we are looking for is something to be 
effective and, from my standpoint, I don't see China buckling 
under the withering diplomacy from the United States.
    It seems to me that action regarding their significant 
investment in that port is something that they might buckle to.
    Mr. Pomper. Yes. It's hard to make great powers buckle and 
so I am hesitant to sort of suggest coercive measures there. 
But I will say I do agree that they should--I understand your 
point about not caring. I think there is a great callousness, I 
think, toward the suffering and I don't want to defend them in 
any way.
    But I do think that continuing to raise the pressure, 
speaking with a clearer voice, can create greater costs for 
people who take that posture.
    Mr. Perry. Thank you, Mr. Chairman.
    Chairman Royce. We go to Joaquin Castro of Texas.
    Mr. Castro. Thank you, Chairman.
    Thank you all for your testimony today, and I was glad to 
see yesterday the announcement about the United States 
committing another $185 million to help combat this 
humanitarian tragedy.
    Let me ask you about--because I am co-chair of the U.S.-
ASEAN Caucus--about the involvement of the ASEAN nations or any 
effort that they've made to help in this situation that you all 
may be aware of.
    Ms. Van Susteren. I am not personally aware but with 1 
million people on the ground--there are almost 1 million 
people--there are NGOs from literally every place.
    I was privy mostly to the American ones--Samaritan's Purse, 
of course. I mean, there's other ones, too. Doctors Without 
Borders are doing incredible--but you hear stories about how 
everyone is so proud that they've vaccinated 400,000 people 
from cholera.
    But the problem is when they told me that and they were all 
excited, I am doing the math and I think, well, what about the 
other 400,000. So a lot more help is needed.
    Mr. Pomper. Yes, and I am afraid I am not sort of on top of 
the specifics of the ASEAN response. But I do associate myself 
with Greta's comments that more is always needed and 
particularly if we are talking about multilateral responses, 
getting the region on board with whatever the United States has 
in mind in terms of coercive measures--if there's going to be 
some sort of international criminal justice proceeding that 
might result in arrest warrants at some point, getting the 
region on the same page so that those will actually be 
meaningfully enforced is incredibly important.
    Mr. Castro. Thank you. I yield back.
    Chairman Royce. All right. We go now to Dan Donovan of New 
York.
    Mr. Donovan. Thank you, Mr. Chairman. I thank you both for 
your insight and you describe this atrocity tremendously in 
your video, Greta. It was, if not eye opening, stomach 
sickening because of what's happening to these people.
    I just wanted to ask two different areas, one about helping 
these poor people. Is there a struggle getting resources? Is 
there a blocked--is someone trying to block our abilities to 
assist the people who are now refugees? Or is it a matter of 
just getting more help and relief to them?
    Ms. Van Susteren. Well, I mean, getting--they always need 
more medicine. When I was there they needed more medicine. They 
were out of medicine.
    There's always a food shortage. There always--so yes, they 
can always use more. One of the other sort of practical 
problems is that to get there from Cox's Bazar, which is the 
city that where you'd probably start positioning things, is 
that it's the worst roads you can imagine--the worst traffic 
you can imagine.
    I mean, it's really sort of hard to get the trucks through 
when you have--even within the camps themselves, when I was 
there, is that we went into the camp and an hour later that the 
bridge--the mud bridge that got us into the camp had washed 
away from the monsoons, and there was an ambulance that 
couldn't get across the mud bridge because it had washed out.
    So, I mean, it's all sorts of problems like that with any 
giant catastrophe. The good news is all these organizations 
that are on the ground are so well coordinated because they 
have responded to every single crisis you can imagine.
    Whether it's an earthquake in Haiti or it's a refugee camp 
in Sudan, they all sort of know each other and work well 
together and the U.N.
    It appeared to be really well organized. The problem is the 
magnitude of the problem and you have got the weather, which is 
so punishing--the monsoon. It's indescribable.
    Mr. Donovan. But the local government services, and they're 
not preventing us from getting there?
    Ms. Van Susteren. Well, I don't think they are. But the 
local people are starting to get upset. Much like you see with 
the Syrian refugees going into Jordan, when people do sort of 
slip out and then they start taking the jobs, then the local 
people start get upset.
    And you have got the other problem that it was a beautiful 
lush area and the Rohingya have come in and they've cut down 
every single piece of foliage there so they could build huts 
and have fuel.
    There's nothing there, which, of course, then contributes 
to the whole problem with the mudslides when the monsoon comes.
    So naturally, this is such a burden on Bangladesh. I 
scanned the newspapers when I am here and it has been 
relatively quiet in the media about complaining about it.
    I think they've been quite generous. But this is a huge 
burden on a very poor country and at some point they're going 
to break.
    Mr. Donovan. All right.
    Mr. Pomper, you spoke earlier about our message--the United 
States message about the crisis not being clear. What should we 
be doing?
    Mr. Pomper. What I meant by that was when the State 
Department issued its report it sort of went up to a point in 
terms of the conclusions that it reached but it did not 
actually crystallize those conclusions around the kinds of 
provisional legal conclusions that people were expecting the 
report to articulate.
    It also wasn't rolled out in a very clear way. It wasn't 
accompanied by any kind of policy vision. Normally, when you do 
an exercise like that I think the hope is that while you're 
doing it you're also thinking about what you're going to say 
about where a policy is supposed to go and how it's going to 
create sort of a meaningful context into which this kind of 
work can laud and I think that work still needs to be done.
    Mr. Donovan. But it didn't indicate that our commitment is 
wavering at all, did it?
    Mr. Pomper. I just think it was a little bit of a missed 
opportunity.
    Mr. Donovan. Okay. My last question in my last minute is 
about a lot of my colleagues spoke about China's ability, if 
they wanted to, to influence the atrocities that are happening 
and help us to stop the genocide that's occurring.
    Are they the only other country? Are there other people who 
have influence in the region that could be helpful to us?
    Mr. Pomper. So the entire region is going to be important 
to any kind of response that the United States wants to help to 
craft and to lead. The Chinese are by far the most important 
because of their veto power at the Security Council and because 
of the importance of the Security Council to creating a legal 
framework for collective action.
    Mr. Donovan. Back in New York we would say, who else could 
we put the arm on.
    Mr. Pomper. I think I would be very liberal in terms of 
outreach at this point because the entire region is going to be 
important to the response.
    Mr. Donovan. Okay. I thank you both.
    Chairman Royce. Mr. Chris Smith of New Jersey.
    Mr. Smith. Mr. Chairman, I want to thank our two 
distinguished witnesses for their leadership as well as for 
their testimony today.
    It's very challenging and certainly you put a very 
important bit of emphasis on the need for significant action. 
We are nowhere near doing what we could or should be doing.
    You mentioned the ICC and I think the ICC has had two 
convictions since its founding, at least up to 2016. I've met 
with Bashir in Khartoum.
    He still has what should be a Sword of Damocles being held 
over his head and he travels the world. He goes to China, and 
they don't grab him and send him to the Hague for prosecution. 
So it has been feckless.
    But I would hope that there would be a referral by the 
Security Council. China will likely veto that, but we ought to 
pursue that. So thank you for that.
    Let me just ask, and maybe you might want to comment on 
that I was the House sponsor of the Global Magnitsky Act. 
Pushed very hard. We got it into the NDAA. It is an excellent 
law and it makes a difference.
    Since 2017, General Maung Maung Soe was sanctioned. In 
August 2018, three more military and one police sanctioned--the 
33rd Light Infantry, the 99th Light Infantry.
    The first question would be, is that enough or should more 
be listed on that sanctions list?
    Secondly, in 2013, one of my staffers interviewed the 
infamous Buddhist monk Wirathu, who called himself the Buddhist 
bin Laden, and he instigated, as we know, much of the violence 
targeting the Rohingya.
    And he concluded--and this goes to your point, Mr. Pomper, 
about the list of ethnicities that could still be targeted and 
we know the Christians were targeted before.
    I remember when we called this junta the SLORC and they 
continue to be as bad as they have ever been, if not worse, 
with this genocide against the Rohingya.
    But he said, and this is his words to a member of my staff, 
``First the Muslims, then the Christians. Both are threats to 
our Buddhist future.'' And as been said by my colleagues, we've 
all been disappointed in Aung San Suu Kyi and others.
    But it seems to me that they're not going to stop with the 
Muslims and, of course, there's already killings of Christians.
    But you might want to speak to that as well.
    Let me also ask you about, and some of my colleagues have 
referenced it, but China's goal is to make the world safe for 
dictatorships and authoritarian regimes.
    They certainly want a warm water port on the Bay of Bengal, 
and you got a situation, as we all know, where they are not 
only providing weapons but they are simpatico. They are in 
solidarity with the atrocities being committed by this regime.
    We need to put more pressure on China and you might want to 
speak to that. Are we raising it sufficiently with Xi Jinping 
or not and if you could speak to that as well.
    And finally, on trafficking, I am the author of the 
Trafficking Victims Protection Act. We have another bill 
pending today--this hour--over on the Senate side. Hopefully, 
if it does pass it'll be my fifth law on combatting human 
trafficking.
    The question is, what is your sense of what's happening? 
And you have been to the camps, Greta. Thank you for your 
leadership on that.
    What's the deal with the trafficking? Do you have any 
insights you could provide us?
    Ms. Van Susteren. First, I can tell you about the 
trafficking.
    Mr. Smith. Yes, please.
    Ms. Van Susteren. That's just a growing crisis in there 
because you have got a lot of young girls in there and what 
happens is the brokers come in and that's a huge problem and 
it's only going to get worse. It's not going to get better 
because what happens is--at least I talked to someone who was 
working on the camps and trying to combat it--is that the 
brokers come in and they say to these families, look, send your 
13-year-old girl with me--I will take her to beauty school in 
Saudi Arabia or China or something and she'll send all this 
money back.
    So trafficking--we haven't even touched that. That is such 
a problem. It's a bad problem now. It's not going to get 
better. So you can put that one on your list.
    The question about the Christians--the attention, of 
course, is on the Rohingya--the Muslims. But information that I 
am told is that the Christians--the Karens--they're also 
getting persecuted, just not at the numbers. But they're not 
getting the media attention, either. So we don't know much 
about that and, of course, they don't have the magnitude of the 
Rohingya.
    The ICC--I don't have a lot of hope in the ICC but I 
definitely think we should do everything we can and use every 
tool in your tool box, and to the extent that we can get the 
ICC interested in this I think that's good. It puts attention 
on it.
    And you mentioned China protecting Bashir. Well, it's not 
even just China. Even South Africa Presidents--then President 
Zuma helped Bashir sneak out of South Africa and they're a 
signatory to the ICC.
    So the ICC is not going to answer this but it's going to 
put more world pressure. It's sort of collective. It's why we 
need them--we need Congress. We need the U.N. We need the ICC 
and all those things.
    Sanctions--and I say this personally is that if we can put 
more sanctions and more people put a squeeze on more people.
    Mr. Pomper. I think I agree with all that. I think, 
starting with the ICC, yes, it's an imperfect institution with 
a track record that's a little bit better than it was a few 
years ago but still it's struggled to be effective and I think, 
as I mentioned earlier in this hearing, one of the issues is 
that the international community needs to support this effort. 
It doesn't have a police force. It doesn't have an enforcement 
arm. It relies on member states. It relies on the international 
community to support it.
    So that's where U.S. diplomacy can actually be helpful. 
Right now, U.S. diplomacy is committed to actually undermining 
the coordinates' legitimacy. So it's going in the wrong 
direction.
    In a perfect world, the U.S. Government would actually be 
supplying information and actually helping them build the case, 
which they've already sort of started in the--to build. They've 
launched a preliminary examination. They've seized themselves 
jurisdiction. There is an opportunity there. Unfortunately, I 
think we are missing that opportunity.
    On targeted sanctions, the fact-finding mission, I think, 
listed a number of potential targets who have not yet been 
designated by the United States. I would hope that the State 
Department and the Treasury Department would be looking into 
those targets.
    On the other ethnic minorities, yes, the Shan and the 
Kachin were both, I think, subjects of a little bit of the 
fact-finding mission report. There's a lot that should be 
explored there. It would be great if Congress could bring 
attention to their plights as well.
    Thank you.
    Chairman Royce. Okay. We are going to go to Sandy Levin of 
Michigan and then Mike McCaul of Texas.
    Mr. Levin. Well, thank you very much. I appreciate the 
committee letting me join in.
    I don't know--is it appropriate for me to enter a statement 
in the record? Is that appropriate?
    Chairman Royce. Without objection.
    Mr. Levin. So let me just say very few things. I think I 
wanted to come here to congratulate the committee on paying 
attention to this serious issue and to your testimony.
    I think the evidence is totally clear. I think genocide is 
occurring. There's been some hesitation to say that is recent 
with the State Department to report where they spelled it out 
so clearly as was spelled out in the U.N. report.
    But they hesitate to call it genocide when it is.
    Secondly, I think there's been hesitation because of the 
role of Aung San Suu Kyi, and I understand that, and others who 
have met her can understand that.
    She was a champion. The problem is that the events there 
have, I am afraid, caused her to pull back and it's had a 
dramatic effect, I think, throughout. And you mentioned the 
failure of the media here to really bear down.
    And I think at times there was some hesitation within this 
Congress. I think it was a year and a half or more ago that the 
late John McCain and Dick Durbin introduced a resolution in the 
Senate that said it very clearly, and I essentially took that 
resolution and I introduced it in the House.
    And, again, I think because of Aung San Suu Kyi there was 
some hesitation. But I recently read a comment of hers--it's 
one of many--and this is what she said about the treatment of 
the Rohingya: ``There are, of course, ways in which with 
hindsight, I think, the situation could have been handled 
better. We believe for the sake of long-term stability and 
security we have to be fair to all sides.''
    When it comes to this circumstance, to genocide, there 
really is only one side.
    And I want to close, Mr. Chairman and others, by 
remembering a time. It was a couple decades ago, and President 
Clinton was there with Elie Wiesel. It was on a different 
subject, and Elie Wiesel turned to the President of the United 
States and said, ``Don't forget the Bosnian genocide.''
    And so I want to close, Mr. Chairman, again saying the work 
of this committee is so important, and while it's too late, I 
think, before we recess Friday, it's my hope that in addition 
to what has been done by this committee and the Congress so far 
that when we come back there will be further steps taken.
    Chairman Royce. Thank you. Thank you, Mr. Levin.
    Mr. Levin. So let me thank you again for this opportunity 
and I want, with so many others, to join you in taking the 
further steps necessary to bring to the attention of the world 
and everybody in this country including the release of those 
two reporters, the need for still further action.
    Thank you so much, Mr. Chairman.
    Chairman Royce. Thank you, sir, and I also want to thank 
Tom Garrett here with us. Tom was here since before 10 o'clock 
this morning and, without objection, I would like to go to Mr. 
Garrett for his questioning now, if we could.
    Mr. Garrett. Thank you a lot, Mr. Chairman, and I really 
appreciate this hearing and I appreciate the work of the Voice 
of America, let alone Ms. Van Susteren.
    The Voice of America, when properly levied, has been 
instrumental to the freedom of literally hundreds of millions 
of people and that shouldn't be underestimated, but not 
properly levied we probably are pouring bad money after good. 
But in this circumstance we are on the right side of history.
    As it relates to the points made by Mr. Pomper, I find both 
agreement and disagreement. And Ms. Van Susteren said earlier, 
Mr. Chair, that we should use all of the above. I 
wholeheartedly agree.
    Having said that, the questions as it relates to the U.N. 
Human Rights Commission, et cetera, exacerbates some of us 
because, candidly, those bodies have been used to stymie 
progress in the right direction, right.
    I mean, when you have a body wherein there are members like 
the DRC, Angola; Pakistan, who horribly exploits ethnic 
minorities; China, who has imprisoned north of 1 million Uighur 
and oppress that population; Saudi Arabia, who I need not speak 
to; and Cuba, who maimed members of the U.S. State Department 
staff on the UNHCR, maybe their credibility is in question.
    Having said that, work with the tools you have, not the 
tools you wish you had.
    Refugee camps breed hopelessness, hopelessness breeds 
extremism, and extremism stymies the most fundamental of human 
rights, that being paramount the right to life, amongst others.
    I spent 8 months in a tent standing between Bosnia and 
Serbs and Muslims in the Army when I was younger, better 
looking, and had more hair, and I think it's been poignant that 
some members of this committee, Mr. Chair, have pointed out the 
role of China in these egregious circumstances.
    There is a role of China, some of which I can't speak about 
in this forum. How dare China wag its finger at us when they 
continue to perpetrate this aforementioned violations against 
the Uighurs, against the Falun Gong, against those who practice 
the Christian faith?
    And yet, we need to understand how China works. China 
drives wedges between potential alliances. There's probably no 
more important region in the next 30 years of our world than 
ASEAN, and Burma maintains the second--Myanmar maintains the 
second largest standing army in that region after Vietnam. They 
are wholly dependent upon the Chinese and the Chinese have 
interests, again, that I can't discuss in this forum in some of 
the atrocities that have been perpetrated. We need to speak the 
truth to that.
    I understand, as Mr. Pomper said and I will paraphrase that 
sometimes it's hard to move a great power. You will not 
accomplish anything you do not try to do. So we need to try.
    Understanding the Chinese drive wedges between potential 
alliances, use proxies to advance Chinese interests, create 
regional vacuums that the Chinese can fill, and then lie, lie, 
lie. That's the China paradigm.
    So what can we do here today, and this is a passion of 
mine. I've had the opportunity to work with Americans both 
Muslim and non-Muslim in groups like Our Aim to send aid to the 
Rohingya; building wells, building houses, building bridges, 
because when children can't get across a raging torrent during 
a monsoon then you have a secondary child separation.
    But we need to worry about what we can do and we need to 
understand where we come from. We had Dred Scott. We had Jim 
Crow. We had the first Article 1 with three-fifths of a person.
    We even proved, because the Preamble calls for forming a 
more perfect union, not establishing a perfect one--we should 
demand the same of those with whom we work.
    Global Magnitsky--it's been hit on. I have to tip my hat 
repeatedly to Chairman Royce, to Chris Smith, to members across 
the aisle. We should walk this dog all the way to the end of 
the line and pound everybody we can. We can do that 
unilaterally and we should.
    And I've heard--in fact, I've called for in this committee 
the revocation of Ms. Aung San Suu Kyi's Nobel Peace Prize. But 
we can't control that.
    What we can control is the Congressional Gold Medal that 
was awarded to Aung San Suu Kyi in 2008 and then given to her 
in person in this town 400 yards from where we sit by this 
body.
    It is the highest honor bestowed by Congress and has been 
enjoyed by Pope John Paul, Dr. Martin Luther King, Jr., Ronald 
Reagan, Raoul Wallenberg, who saved tens of thousands, Mother 
Teresa, and the Dalai Lama, and Aung San Suu Kyi.
    So we can't control the Nobel Prize but we can send a 
pretty loud signal. Now, I understand that there are 
complexities here--that Ms. Suu Kyi's hands at some level are 
tied. But silence at some point is complicity, and the words 
that she has spoken about democracy and freedom for individuals 
across communities ring hollow in light of her current inaction 
in the face of a massive, massive displacement and murder and 
rape and enslavement of human beings in her nation.
    So these are things we can do now. We need to ramp up 
Global Magnitsky. It is an amazing tool, and this body bestowed 
upon her an award enjoyed by the likes of Dr. Martin Luther 
King, Jr. and Mother Teresa. We should see immediately about 
revoking that because that we can control.
    I will yield back and I thank you, Mr. Chairman.
    Chairman Royce. Mr. Garrett, thank you.
    We go now to Mike McCaul, chairman of the Homeland Security 
Committee.
    Mr. McCaul. Thank you, Mr. Chairman, for holding this 
hearing.
    Ms. Van Susteren, thanks for putting a media spotlight on 
this, and I agree with you--the media should call more 
attention. We did that in Sudan and exposed the genocide 
happening there. I think it's happening here in this case in 
Burma.
    It is a crime against humanity, and what I worry about is 
the role of China because we know that they are providing the 
Burmese military--they're basically arming them with major arms 
suppliers. They are trying to invest in Burma under the One 
Belt, One Road Initiative where we've seen time and time again 
they go into countries, leverage them, and then take over their 
ports like in Sri Lanka, like in Djibouti.
    Here, they have the Indian Ocean ports in Burma. So we know 
they're trying to--that's their strategy going in and so the 
question is diplomacy, sanctions.
    I know some in the Senate think we need more diplomacy. 
It's not time for sanctions. But what--the two of you, what are 
your thoughts on sanctioning the military--the Burmese military 
and, if so, what impact would that have on the Burmese 
Government to possibly turn to China for more investment?
    Ms. Van Susteren. Well, first of all, let me speak 
personally, not for the Voice of America. I keep saying this 
like a broken record but just that everyone is clear.
    Look, I am all for whatever--as I said, every tool we have 
is to use it and to increase the sanctions I think is 
particularly good.
    When you say what is going to happen if we do that with 
Burma, well, we've seen with the trade war that we have with 
the tariffs, with the soybeans, is that China just went 
someplace else. They're getting it from Brazil and they're 
getting it from some other nations.
    So, there's always a problem when you put in sanctions that 
they just look for another market and they get the market.
    Nonetheless, the question is, as a nation do we want to 
stand up to this? That's really sort of the issue and that's 
really your decision as Representatives and not mine.
    But there's no question that if you put in sanctions 
oftentimes they just go someplace else.
    Mr. McCaul. Right.
    Mr. Pomper. Where I've been on this is that targeted 
sanctions against perpetrators of these atrocities is an 
appropriate consequence and it sends the right message and it's 
something that the United States should pursue.
    It's important as much as anything as a signal to future 
perpetrators both in Myanmar and elsewhere and making it clear 
that the United States and others who, hopefully, it can bring 
along in this effort and will not let these kinds of crimes go 
unanswered.
    Mr. McCaul. Well, and I tend to agree. I think we have a 
moral obligation here to do something and I think Congress has 
that authority--that we can issue sanctions.
    The United Nations, the International Criminal Court--
they've been called upon to prosecute this. I think I agree 
with you, Ms. Van Susteren--they have been a bit feckless, 
powerless. They can't go into these countries and you and I 
were prosecutors and it's hard for them to adequately prosecute 
if they don't have access to the witnesses.
    And the U.N. has its problems. But that's one thing I think 
Congress can do here and it is issue sanctions against the 
Burmese military.
    And so with that, Mr. Chairman, I--in the interests of 
time, I yield back.
    Chairman Royce. Thank you, Chairman. Thank you very much.
    We'll go to Mr. Ted Yoho, chairman of our Asia and the 
Pacific Subcommittee.
    Mr. Yoho. Thank you, Mr. Chairman. Thank you both for 
having the endurance to stay here.
    Ms. Van Susteren, when you started off you said journalists 
must document atrocities, and I agree with that because that's 
the only way that message gets out.
    And I think you followed up that when we say never again, 
we must mean it, and I agree. So the question always comes out 
how, who, and when, and just as we've heard over and over again 
the history. When Nazi Germany went in and they were going 
through Europe collecting, rounding up, separating, processing, 
and murdering the Jews, the world stood by.
    I don't think purposely. It was happening while Hitler was 
taking over Europe and conquering countries. It was the 
aftermath of that, and we all remember, I guess us older ones 
remember, when General Eisenhower stated, ``Never again,'' when 
they went to Auschwitz and they saw these camps, that exposed 
that to the world. That was the journalists. And I commend you 
for what you're doing.
    And so we say never again, yet here we are saying never 
again, and all we have to do is look back in the last 20 or 30 
years. We see Darfur. Mao Zedong murdered 80 million people in 
his own country. Darfur, Sudan, Kosovo, Bosnia, Syria, Yemen, 
now the Rohingya.
    Never again, like you said. When do we mean that? So the 
questions that come up, who should be the policing force? Is it 
one country? Can the U.S. do that by itself?
    I would think not. How do you do that? And we've heard 
sanctions. We do sanctions all the time, and yes, they have 
some effect. But as Chairman McCaul brought out, we can 
sanction but China comes in, another country comes in, and it's 
the same thing we are going through with the DPRK. We put 
sanctions on there but if another country cheats, so there's 
got to be a better enforcing body that we together, 
collectively as nations, agree this will be the body that goes 
in there, and you can do isolation. You can isolate a country. 
You can put embargoes and then, of course, the last one is the 
kinetic actions.
    In your opinions, in your experience--both of you--if you 
could write policy and direct and say, if you guys would do 
this we could have this outcome, how would you like to see it?
    Because I know you're on the ground all the time and you 
see it and you will probably see some things that are just 
obvious.
    Ms. Van Susteren. Well, first of all, we can't police the 
world. I mean, you listed a couple places. There are other 
places even that aren't on your list like the Nuba Mountains in 
Sudan that nobody's paying attention to. I mean, it's just 
impossible to think of us as policing it.
    I think for me at least as an American is that I at least 
want to stand up to this and say we know about this and we are 
not going to be part of it.
    We are not going to do business with you. We are going to 
sanction you, and just from a moral standpoint we are going to 
do everything we can not to let you, meaning Myanmar, to 
participate in the rest of the world.
    I think that's the best we can do. We can't solve all these 
problems. I mean, it's unrealistic.
    But at least we can have the confidence that at least we 
are trying to do something and we are making a statement about 
where we are on these human rights things.
    You know, and the other problem too is that, quite frankly, 
the more practical thing is that these refugee camps are 
breeding camps for some very bad things.
    Mr. Yoho. As we know.
    Ms. Van Susteren. Eventually, the women go off to the 
trafficking. The men go off to the fishing boats and then we 
have extremist groups--that it's a fertile breeding ground 
because they've got nothing to do all day long.
    They even--I mean, they're lucky if they get food that they 
need or medicine that they need. They see their kids die--their 
babies die because Doctors Without Borders might not have 
enough medicine.
    I mean, I hear--when I was there the stories, you wouldn't 
believe what these doctors are trying to do. I mean, we can put 
people on ventilators here. What they have to do they have to 
take a bladder and just pump it all night long--pump it, if 
they've got a dying child. Well, that makes a very unhappy 
situation inside the camps.
    So, I don't think we can solve this but at least we can 
have moral authority in the world and we can say we are not 
doing business with you and we are going to sanction you.
    But that's just--you asked me what my wish list is it's in 
light of being very practical that we can't solve all these 
problems. But we can at least stand up to them.
    Mr. Yoho. Well, I think one of the most important things we 
can do is expose it and I commend both of you for doing that.
    Mr. Pomper, do you have any ideas or thoughts of what you 
would recommend?
    Mr. Pomper. I agree that there are limits to American 
influence. I think American influence does get expanded when it 
works----
    Mr. Yoho. Oh, yes.
    Mr. Pomper [continuing]. Through other bodies and with 
international partners. I do agree that the tools out there are 
imperfect. But one has to work with the tools that are there.
    And so I think as part of efforts toward pressure and 
accountability the United States needs to sort of survey the 
landscape and be very realistic about the fact that if it wants 
to be effective in this space there's a Human Rights Council 
that's actively seizing this matter and it's done a lot of good 
work.
    There's an International Criminal Court that is actively 
seizing this matter and has the potential to do something more 
and think about ways it can support those efforts.
    At the same time, I do think that the United States needs 
to keep on talking to the civilian government, needs to keep 
talking to the military and helping to coax them along, as 
frustrating and as limited as those prospects might be at this 
point.
    Mr. Yoho. Thank you both. I am out of time.
    Thank you, Mr. Chairman.
    Chairman Royce. Ann Wagner of Missouri.
    Mrs. Wagner. Last but not least. It's probably all been 
said but we all haven't said it yet.
    So, Mr. Chairman, first of all, thank you for hosting this 
hearing on a topic that I have drawn attention to again and 
again. I have worked with my colleague, Congressman Castro--it 
was here earlier this month--to send a letter to Aung San Suu 
Kyi urging her to commute the sentences of the two Reuters 
journalists who were sentenced to 7 years of jail time for 
investigating the Rohingya massacres.
    Last week, I was pleased to see that the U.N. finally 
recommended that Burmese generals be investigated for the 
genocide of Rohingya Muslims in the Rakhine State.
    This is a welcome, albeit long overdue, first step in 
bringing the perpetrators to justice. I am proud, really proud, 
that so many members and in a bipartisan way of this body have 
not hesitated to call the violence against the Rohingya what it 
is.
    It is genocide. There is broad bipartisan consensus that 
the United States should be doing everything it can to prevent 
and end genocide. Yet, I will say that our track record is 
deplorable. We failed to stop genocides in Rwanda, in Syria, 
and now in Burma.
    We have waited on the sidelines as the Burmese Government 
actively attempts the extermination of the Rohingya. I am just 
beyond outraged that the officials responsible for this 
genocide have gone unpunished and remain unaccountable.
    Mr. Pomper, the International Crisis Group has done great 
work, and I don't mean to diminish that work in any way. But I 
am curious about something.
    In 2013, sir, your organization awarded its In Pursuit of 
Peace Award to President Thein Sein. This award followed on the 
heels of a wave of crimes against humanity and ethnic cleansing 
of the Rohingya beginning in October 2012, which the Thein Sein 
government failed to adequately respond to and even encouraged.
    Can you elaborate on why the International Crisis Group 
gave this award to the man who refused to address an emerging 
genocide? I know that many human rights advocates at the time--
because I was here in Congress--were very upset and I remember 
hearing about it then.
    Would you like to elaborate?
    Mr. Pomper. I mean not to dodge this question, but I was 
ensconced in the U.S. Government at that time. So I don't 
actually know what the thinking specifically behind the 
provision of that award was.
    I mean, as has been discussed broadly, about a lot of this 
sort of encouragement that different bodies inside the United 
States gave to different elements of the reform effort, there 
was a hopeful logic that was animating a lot of decision making 
at that time that did not pan out, clearly.
    But beyond that, I don't really have anything--I have 
literally no insight to give you. I am sorry.
    Mrs. Wagner. Well, if there's anything that you can find 
out. I know that you work closely with the organization now, 
obviously, and there was such outrage at the time and it made 
no sense and I just would--if there's any insight that you can 
provide my office or the committee I would--I would greatly 
appreciate it.
    And, again, I don't mean to diminish in any way, shape, or 
form the good work that you do do.
    Mr. Pomper. Thank you.
    Mrs. Wagner. The House recently passed my bill, the Elie 
Wiesel Genocide and Atrocities Prevention Act, which I 
introduced to spur significant improvements in the way the 
United States responds to genocide and other crimes against 
humanity.
    One of its provisions would mandate training for foreign 
service officers in early warning and response measures.
    Mr. Pomper, what resources did U.S. entities on the ground 
lack, do you think, that impaired our response to the crisis?
    Mr. Pomper. Sorry. The resources that the entity--I didn't 
quite follow the question.
    Mrs. Wagner. My legislation provides that Foreign Service 
officers in early warning and response measures they would have 
to be schooled up in their crisis prevention on these kinds of 
things.
    Were there other things that at the State Department level, 
at the U.S. level, that we could have done in response to this 
crisis that were lacking on the early side of this?
    Mr. Pomper. The early warning--gosh, I don't--I don't have 
a particularly complete answer for you but--I don't see this as 
a function, frankly, of the United States' failure to see what 
was happening.
    I think this is really a function of a premeditated plan on 
the part of the Tatmadaw--that they were determined to carry 
that out.
    Mrs. Wagner. I am just concerned that our Foreign Service 
officers have the kind of training on the front side of these 
kinds of crises when it comes to warning and response measures. 
So----
    Mr. Pomper. So let me be supportive of that. I certainly 
think that every time we cross a threshold like we've crossed 
right now of an atrocity happening where it was not possible to 
prevent it, it's important to take stock of the toolbox and 
make sure that the United States is doing everything it can--
that it has all the resources that it can muster to do better 
the next time.
    And so if there's a way to get more training and resources 
into the sort of effort of prevention that is certainly a 
worthwhile----
    Mrs. Wagner. Well, I hope you take a look at the 
legislation. We'll be sending it along. It's a good first step 
in the right direction.
    I've run out of time. Ms. Van Susteren, thank you for being 
here. I have some questions for you too. We'll submit it for 
the record.
    Mr. Chairman, I yield back.
    Chairman Royce. Well, thank you. I think this has been a 
very informative hearing and I think you surfaced many, many 
bits of information about this because of your firsthand 
knowledge of being there.
    And let me just concur with you, Greta, on your observation 
that one of the most important things we can do here is try to 
get this information out not just to the American people but to 
the world, and that's one of the things you're trying to do.
    Ms. Van Susteren. And can I just add one thing----
    Chairman Royce. Absolutely.
    Ms. Van Susteren [continuing]. Just a personal standpoint 
is that I really appreciate this because I know this hearing 
back home probably doesn't play--the people across America 
probably don't--this is not going to help you in any way. 
You're doing this for all the right reasons.
    There's no politics in this one. It's just to help people, 
because we don't get any more money out of this--the U.S. 
Government--nobody gets anything out of it. We just get a 
chance to maybe do the right thing.
    Chairman Royce. We just, hopefully, get some level of 
humanity for those who've been through this and some hope for 
their future for all the reasons that you have detailed out 
besides the horror of what we've been through and the fact that 
we've made a commitment on this issue of genocide.
    As they say, never again, and here it is going on with the 
international community held spellbound in the middle of it.
    So thank you to both of you for what you're doing to try to 
drive awareness on this issue and drive action on this issue.
    And thank you to the members for being here today, and we 
stand adjourned.
    [Whereupon, at 12:12 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              

 Material submitted for the record by the Honorable Edward R. Royce, a 
Representative in Congress from the State of California, and chairman, 
                      Committee on Foreign Affairs
                      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Material submitted for the record by the Honorable Edward R. Royce, a 
Representative in Congress from the State of California, and chairman, 
                      Committee on Foreign Affairs
                      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Material submitted for the record by the Honorable Eliot L. Engel, a 
         Representative in Congress from the State of New York
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Note: The preceding document has not been printed here in full but may 
be found at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108717

   

  Material submitted for the record by the Honorable Steve Chabot, a 
   Representative in Congress from the State of Ohio, and chairman, 
                  Subcommittee on Asia and the Pacific
                  
                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Note: The preceding document has not been printed here in full but may 
be found at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108717

                 

Material submitted for the record by the Honorable Gerald E. Connolly, 
     a Representative in Congress from the Commonwealth of Virginia
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


               

                                 <all>
</pre></body></html>
